JOB TRAINING PARTNERSHIP ACT
TITLE II-C OUT-OF-SCHOOL YOUTH
    PERFORMANCE AUDIT




                     Office of Inspector General
                     Office of Audit
                     Report No. 06-01-001-03-340
                     Date Issued: March 19, 2001
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                                       Table of Contents

                                                                                                                          Page
  Acronyms and Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii


  Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

  Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

  Objectives, Scope, and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

  Findings and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

  1.        Documented Reported Positive Program Outcomes for the JTPA Title II-C
                 Out-of-School Youth Program Were Significantly Lower Than Those
                 Reported. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                       A.         A significant number of entered unsubsidized employment
                                        terminations were reported in error and others are
                                         in question. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                       B.         Documentation supporting youth employability enhancements was
                                       seriously deficient. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

  2.        Participants’ Post-Program Earnings Were Affected by Program Interventions
                   and Level of Participants’ Participation. . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                       A.         Post-program earnings were directly impacted by the type of
                                         training a participant received. . . . . . . . . . . . . . . . . . . . . . . . 25

                       B.         Almost half of the training activities to address participants’
                                        barriers were not completed. . . . . . . . . . . . . . . . . . . . . . . . . . 27

  Appendix I – Primary Criteria for Youth Employability Enhancements . . . . . . . . . . . . . 30

  Appendix II -- Sampling Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

  Appendix III -- Deputy Assistant Secretary’s Response to Our Draft Report . . . . . . . . . 34




Office of Inspector General                                            i
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                 ACRONYMS AND ABBREVIATIONS

  BST                         Basic Skills Training
  CFO                         Chief Financial Officer (U.S. Department of Labor)
  CFR                         Code of Federal Regulations
  DOL                         Department of Labor
  EMP                         Entered Unsubsidized Employment
  ENT                         Entered Non-Title II Training
  ETA                         Employment and Training Administration
  FY                          Fiscal Year
  GED                         General Equivalency Diploma
  GPRA                        Government Performance and Results Act of 1993
  HS                          High School
  ISS                         Individual Service Strategy
  JS/JR                       Job Seeking/Job Retention Skills
  JTPA                        Job Training Partnership Act
  MIS                         Management Information System
  MLE                         Major Level of Education
  OIG                         Office of Inspector General
  OST                         Occupational Skill Training
  OSY                         Out-of-School Youth
  PEWM                        Pre-Employment/Work Maturity
  PIC                         Private Industry Council
  PY                          Program Year
  RTS                         Returned to Full-Time School
  SDA                         Service Delivery Area
  SPIR                        Standardized Program Information Report
  SPRA                        Social Policy Research Associates
  WE                          Work Experience



Office of Inspector General                           ii
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                 ACRONYMS AND ABBREVIATIONS
                                                 (Cont’d)


  WIA                         Workforce Investment Act of 1998 (Public Law 105-220)
  YEC                         Youth Employment Competency




Office of Inspector General                           iii
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                       EXECUTIVE SUMMARY


  Because one of the Secretary’s top Fiscal Year (FY) 1999 priorities was youth services,
  the Office of Inspector General (OIG) audited the Job Training Partnership Act’s
  (JTPA) Title
  II-C out-of-school youth (OSY) program's performance for Program Year (PY) 1997,
  July 1, 1997, through June 30, 1998, the last PY of outcomes information available at the
  time we began our audit.

  Our audit objectives were to determine:

                   !          whether out-of-school youth participants’ reported outcomes for
                              positive terminations were accurate and fully documented (see
                              finding 1); and

                   !          what impact program interventions had on participants’ post-
                              program earnings (see finding 2).

  With respect to our first objective, we determined that positive reported outcomes for 46
  percent of the participant sample (228 of 499) we evaluated were not documented. This
  determination is not intended to imply that only documented outcomes are valid positive
  outcomes. Some of the outcomes that were not documented may have, in fact, been
  attained. However, unless a reported outcome is documented, the outcome’s veracity is
  not certain.

  In our opinion, based on the significance of the rates of positive outcomes that were not
  documented, the OSY outcomes rates reported by the Standardized Program
  Information Report (SPIR) and included in the PY 1997 Chief Financial Officer (CFO)
  Report are significantly lower than reported. The JTPA Title II-C OSY program’s true
  effectiveness is probably somewhere between the Employment and Training
  Administration’s (ETA) reported rates and the OIG’s documented successes; i.e.,
  positive outcomes are lower than ETA reported, and some of the outcomes the OIG
  found not to be documented were no doubt attained. However, unless the outcomes are
  documented, the true effectiveness of youth training programs cannot be determined.

  Performance information cannot be relied upon for decision making and other purposes
  unless it is known to be accurate. The performance information included in the
  Department’s CFO Report was prepared pursuant to the Government Performance and
  Results Act (GPRA), which was enacted in part to improve congressional decision
  making by having agencies objectively inform Congress of Federal programs’ results.




Office of Inspector General
JTPA’s Title II-C Out-of-School Youth Performance Audit


  To ensure reported data are reliable, GPRA requires that agencies establish means to
  validate measured values that are presented in the annual performance report. ETA
  recognizes the importance of being able to substantiate its externally reported
  information and has initiated a data validation study of information reported under the
  Workforce Investment Act (WIA), which replaced JTPA. Had such measures been in
  place for the Title II-C performance information we audited, our results probably would
  have been different. However, neither ETA nor the grantees consistently applied
  procedures to assure the validity of the data we audited, and we found significant
  discrepancies between what was reported and what we could substantiate.

  Actions must be taken by all parties -- the service deliverers, Workforce Investment
  Boards, states, and the ETA -- involved in the current WIA program to verify youth
  performance outcomes to ensure they are accurate and fully consistent with WIA
  regulations and GPRA requirements.

  Related to our second objective, youth who participated in occupational skills training
  (OST) activities had earnings in the 2 years following termination that were twice the
  level of those who did not participate in OST. In addition, for those OST participants
  who completed the activity, post-program earnings for the 2-year period after termination
  were 69 percent higher than for those who did not complete the OST activity.

  Also related to our second objective, we tried to determine whether: (1) the Individual
  Service Strategy (ISS) was being used to provide training or services to specifically
  address participants’ employment barriers; and (2) the provided interventions impacted
  post-program earnings. While the majority of participants were enrolled in activities to
  address their barrier to employment, the participants did not complete approximately half
  the activities.

  We recommend the Assistant Secretary for Employment and Training:

                   !          Notify all states and substate WIA grantees of the audit results and
                              emphasize the necessity for states and their grantees to validate
                              outcomes data as part of their monitoring programs and training
                              provider eligibility determinations.

                   !          Emphasize to the states and substate grantees the importance of
                              documenting not only reported outcomes but also specific services
                              provided, dates services were provided, and actual program exit
                              date -- date of last activity.

                   !          Include in ETA’s monitoring program a review of the states’ and
                              substate WIA grantees’ implementing such a data validation effort.



Office of Inspector General                           2
JTPA’s Title II-C Out-of-School Youth Performance Audit


                   !          Emphasize the importance of the WIA program’s not only enrolling
                              youth in occupational skills training activities, but also finding ways
                              to keep them actively participating in the program to completion, to
                              maximize their post-program earnings.

  ETA’s Response to Draft Report and Auditor’s Conclusion

  The Deputy Assistant Secretary agrees that performance results must be credible. The
  Deputy Assistant Secretary indicated that if the reality or the perception is that the programs
  are not reporting accurately, the system’s integrity is at stake. Therefore, the Employment and
  Training Administration (ETA) is committed to developing clear, precise, and feasible
  standards for documenting program outcomes. ETA’s new data validation initiative is
  attempting to create both more precise programming specifications and also more precise
  standards for validating data quality.

  The OIG will continue to provide input and assistance to the ETA in an effort to ensure
  the integrity of the reported data.

  ETA’s detailed response and auditor’s conclusions are included at the end of each
  finding. In addition, the Deputy Assistant Secretary’s complete response is included as
  Appendix III.




Office of Inspector General                           3
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                            BACKGROUND

  At the beginning of Fiscal Year (FY) 1999, the Secretary of Labor included youth services
  as one of her top priorities. At that time, youth training and related services under the
  Department of Labor’s (DOL) auspices were provided under the Job Training
  Partnership Act (JTPA); yet, Public Law 105-220, the Workforce Investment Act (WIA),
  signed August 7, 1998, had already been enacted to replace the JTPA program effective
  July 1, 2000. With the imminent demise of the JTPA program and the beginning of the
  WIA program with its heavy emphasis on serving youth, the Office of Inspector General
  (OIG) decided to conduct a performance audit of the JTPA, Title II-C, Out-of-School
  (OSY) program.

  We performed this audit of the JTPA OSY program because even though JTPA was
  being phased out, the WIA still includes youth programs and still requires performance
  reporting. The OIG had not previously conducted a performance audit of the JTPA
  OSY program and believed that the audit results could be beneficial to DOL
  management in assessing where the WIA program could make improvements in
  administering and reporting on the WIA youth programs.

  Beginning July 1, 2000, adult and youth training programs administered by the
  Department under JTPA Titles II and III changed to WIA Title I programs. The
  purposes of the WIA Title I programs are identified in Subtitle A, Section 106, which
  established the WIA program’s primary objectives. Program managers use these
  objectives to establish the new program’s goals and performance measures. As stated in
  the WIA:

                   The purpose of this subtitle is to provide workforce investment
                   activities, through statewide and local workforce investment
                   systems, that increase the employment, retention, and earnings
                   of participants, and increase occupational skill attainment by
                   participants, and, as a result, improve the quality of the
                   workforce. . . .

  Likewise, the JTPA, as amended, stated that one of its purposes was to:

                   . . . establish programs to prepare youth . . . facing serious
                   barriers to employment for participation in the labor force by
                   providing job training and other services that will result in
                   increased employment and earnings, increased educational and
                   occupational skills, and decreased welfare dependency. . . .

  JTPA, Title II, Part C, provided year-round training and employment programs for youth
  -- both in-school and out-of-school -- to improve their long-term employability, skills, or


Office of Inspector General                           4
JTPA’s Title II-C Out-of-School Youth Performance Audit


  transition to other education or training. We limited our audit to the Title II-C OSY
  component, which is required by the Act to serve at least 50 percent of the total Title II-C
  program participants in each service delivery area.

  An out-of-school youth was defined at Title 20 Code of Federal Regulations (CFR), Part
  628.803:

                   (a) An out of school youth is a youth who does not meet the
                   definition of in-school youth as set forth in paragraph (b) of this
                   section. An out-of-school youth shall be eligible to participate in
                   programs under this subpart, if such individual is:
                           (1) Age 16 through 21, and
                           (2) Economically disadvantaged.
                           (b) . . . In-school youth means a youth who has
                           not yet attained a high school diploma and is
                           attending school full time.

  20 CFR 628.803 (h)(2) further defined out-of-school youth as a youth who has attained a
  high school diploma or an equivalency, is habitually truant or is attending an alternative
  school program. Such programs may be operated either within or outside of the local
  public school system and can offer either a high school diploma or equivalency.

  With WIA’s major emphasis on performance outcomes and the Government
  Performance and Results Act of 1993 (GPRA) requirement for Federal agencies to
  annually report their programs’ outcomes, the validity and veracity of future WIA
  performance outcomes data is not just a necessity, but a requirement.

  WIA regulation 20 CFR, Part 667.300(e) provides:

                   Annual Performance Progress Report. An annual performance
                   progress report for each of the three programs under title I,
                   subpart B is required by WIA sec. 136(d).
                                         . . . . . . .

                   (2) States submitting annual performance progress reports that
                   cannot be validated or verified as accurately counting and
                   reporting activities in accordance with the reporting instructions,
                   may be treated as failing to submit annual reports, and be subject
                   to sanction. . . . [Emphasis added.]

  The GPRA requires program managers to establish performance goals and systems to
  verify and validate the numbers reported. The GPRA states:



Office of Inspector General                           5
JTPA’s Title II-C Out-of-School Youth Performance Audit


                   (a) In carrying out the provisions of section 1105(a)(29), the
                   Director of the Office of Management and Budget shall require
                   each agency to prepare an annual performance plan covering
                   each program activity set forth in the budget of such agency.
                   Such plan shall-

                              (1) establish performance goals to define the level
                              of performance to be achieved by a program
                              activity;

                              (2) express such goals in an objective,
                              quantifiable, and measurable form unless
                              authorized to be in an alternative form under
                              subsection (b);

                   (3) briefly describe the operational processes, skills and
                   technology, and the human, capital, information, or other
                   resources required to meet the performance goals;

                   (4) establish performance indicators to be used in measuring or
                   assessing the relevant outputs, service levels, and outcomes of
                   each program activity;

                   (5) provide a basis for comparing actual program results with the
                   established performance goals; and

                   (6) describe the means to be used to verify and validate
                   measured values. [Emphasis added.]

  As demonstrated from these WIA and GPRA authorities, the veracity of reported
  performance outcomes is imperative.

  Performance measures for the Title II-C Youth Program

  In addition to the adult standards in the JTPA, Section 106(b)(3) (e.g., placement in
  unsubsidized employment), Section 106(b)(4) provided additional factors for youth
  standards. In summary, per Standardized Program Information Report (SPIR)
  instructions, positive outcomes used in calculating performance measures for OSY
  included:

          !        placement in unsubsidized employment -- minimum 20 hours per week, or

          !        attained at least one of the following four employability enhancements:


Office of Inspector General                            6
JTPA’s Title II-C Out-of-School Youth Performance Audit


                   1.         Youth employment competency (must complete two of three
                              competencies defined by the Private Industry Council (PIC)).

                   2.         Return to full-time secondary school.

                   3.         Completed major educational level -- secondary or post-secondary.

                   4.         Entered non-JTPA Title II training.

  See appendix I for the Primary Criteria for Youth Employability Enhancements.




Office of Inspector General                           7
JTPA’s Title II-C Out-of-School Youth Performance Audit


                         OBJECTIVES, SCOPE, AND METHODOLOGY


  Our audit objectives were to determine:

          !        whether out-of-school youth participants’ reported outcomes for positive
                   terminations were accurate and fully documented (see finding 1); and

          !        what impact program interventions had on participants’ post-program
                   earnings (see finding 2).

  Our audit universe included youth who:

          !        received a positive termination from the program -- either entered
                   unsubsidized employment or attained an employability
                   enhancement -- between July 1, 1997, through June 30, 1998, and

          !        were identified in SPIR as out-of-school at the time of enrollment.

  Using PY 97 SPIR data, we identified an audit universe of 35,323 participants who met
  these audit criteria.

  We audited program services and outcomes for 16 randomly-selected youth at each of 34
  randomly-selected Service Delivery Areas (SDA) – a sample size of 544 participants.
  However, not all selected SDAs had 16 participants who met the out-of-school criterion;
  therefore, the audit sample was reduced to 510 out-of-school youth participants. As a
  result of our audit work, we identified 11 of the 510 sampled participants who were really
  in-school youth, reducing the final sample to 499 participants.

  Our audit procedures included, but were not limited to:

          !        comparing selected SPIR data (e.g., services received, reported outcomes,
                   etc.) with information obtained from reviewing the SDAs’ participants files,

          !        reviewing participants' files for documentation of services and outcomes
                   reported (including types of training provided to participants),

          !        interviewing SDAs’ staff regarding participant file information,

          !        evaluating and comparing SPIR definitions to states’ and SDAs’
                   definitions,




Office of Inspector General                           8
JTPA’s Title II-C Out-of-School Youth Performance Audit


          !        reviewing states’ wage files or obtaining employers’ confirmations to
                   confirm reported entered unsubsidized employment outcomes, and

          !        analyzing and comparing training activities to reported outcomes and
                   participants’ earnings for 24 months (8 quarters) after termination from the
                   program.

  We conducted our audit in accordance with Government Auditing Standards for
  performance audits issued by the Comptroller General of the United States.

  We began our fieldwork on August 4, 1999, and completed it on April 4, 2000.

  Audit procedures used to complete the review were not designed or intended to give an
  opinion on the adequacy of internal or program controls covering performance reporting
  at the local, state, or Federal level.




Office of Inspector General                           9
JTPA’s Title II-C Out-of-School Youth Performance Audit


                              FINDINGS AND RECOMMENDATIONS


  1.      Documented Reported Positive Program Outcomes for the JTPA Title II-C Out-of-
          School Youth Program Were Significantly Lower Than Those Reported.

  Our audit of the PY 1997 JTPA Title II-C OSY program revealed that positive program
  outcomes that were sufficiently documented were significantly lower than those outcomes
  reported on the SPIR and in the Chief Financial Officer (CFO) Report. Our
  determination that some outcomes were not adequately documented is not intended to
  imply that only the documented outcomes are valid positive outcomes. Some of the
  outcomes that were not documented may have, in fact, been attained. However, unless a
  reported outcome is documented, the outcome’s validity is not certain.

  Reported positive outcomes for 46 percent of the participant sample (228 of 499) we
  evaluated were not substantiated by evidence; i.e., the outcomes were either invalid or
  not properly documented. While we found this significant rate of undocumented
  outcomes, we are not implying that ETA has misrepresented youth program outcomes;
  ETA reports what the states report to ETA. While some of the reported outcomes in
  question may be the result of poor record keeping, other questionable outcomes were, in
  fact, invalid outcomes.

  It is also not the intent of this report to damage either the WIA program reforms ETA is
  attempting to implement or future youth programs. However, it is intended to alert ETA
  to a very serious problem that must be fixed to ensure that only documented WIA
  program outcomes are reported. Otherwise, the WIA program’s success will never be
  really evaluated. ETA has indicated it takes this issue very seriously and will work to
  improve the documentation issue.

  Inadequate documentation of positive program termination status

  The 499 sampled terminations we examined included 401 participants who were reported
  as entering unsubsidized employment (EMP); however, only 258 of the 401 EMP
  terminations (64 percent) met the positive outcome reporting criteria. (See part A of this
  finding.) The remaining 98 terminations were participants reported as having attained a
  youth employability enhancement. Only 13 of these 98 (13 percent) participants' files had
  adequate documentation to support the enhancement termination. (See part B of this
  finding.)

  Inadequate documentation of overall employability enhancements

  ETA not only reports the youth program’s overall positive terminations but also provides
  outcomes statistics by outcome type -- entered unsubsidized employment or obtained


Office of Inspector General                          10
JTPA’s Title II-C Out-of-School Youth Performance Audit


  employability enhancement(s). Therefore, SDAs can report one or more youth
  employability enhancements for participants regardless of their termination status; i.e., a
  participant who was reported for overall outcomes reporting as having entered
  unsubsidized employment could also have one or more SPIR-reported employability
  enhancements.

  For the 499 sampled participants, the SPIR reported 308 employability enhancements for
  283 participants. Our evaluation revealed that only 27 percent of both individuals (75 of
  283) with reported employability enhancements and total employability enhancements
  (84 of 308) were adequately documented. (See part B of this finding.)

  The OSY program we audited was operated under the JTPA which has now been
  replaced by the WIA. Regardless of the enabling legislation, JTPA or WIA, youth
  programs are ongoing and performance outcomes will continue to be reported against
  established standards. The question to be answered is whether the reported outcomes
  can be validated and relied upon by ETA for GPRA reporting.

  The JTPA, Section 165 provided:

          (a) (1) Recipients shall keep records that are sufficient to permit the
          preparation of reports required by this Act. . . .
                                        . . . . . . .

          (c) Each State, each administrative entity, and each recipient . . . receiving
          funds under this Act shall --
                                        . . . . . . .

          (2) prescribe and maintain comparable management information systems . . .
          designed to facilitate the uniform compilation, cross tabulation, and analysis of
          programmatic, participant . . . data. . . .
                                          . . . . . . .
          (d) (1) The reports required . . . shall include information pertaining to . . .
                   (B) the activities in which participants are enrolled, and the
                   length of time that participants are engaged in such activities;
                   (C) program outcomes . . . for participants. . . .
                                          . . . . . . .
          (e) The Governor shall ensure that requirements are established for retention
          of all records pertinent to all grants awarded . . . including . . . participant
          records and supporting documentation. . . . [Emphasis added.]




Office of Inspector General                          11
JTPA’s Title II-C Out-of-School Youth Performance Audit


  WIA regulation 20 CFR, Part 667.300(e) provides:

          Annual Performance Progress Report. An annual performance progress report
          for each of the three programs under title I, subpart B is required by WIA sec.
          136(d).
                                        . . . . . . .
                  (2) States submitting annual performance progress reports that cannot
          be validated or verified as accurately counting and reporting activities in
          accordance with the reporting instructions, may be treated as failing to submit
          annual reports, and be subject to sanctions. . . . [Emphasis added.]

  The GPRA requires that program managers establish performance goals and systems to
  verify and validate the numbers reported. The ETA will be using state reported
  outcomes to report the outcomes of the WIA program for GPRA purposes. The GPRA
  states:

          (a) In carrying out the provisions of section 1105(a)(29), the Director of the
          Office of Management and Budget shall require each agency to prepare an
          annual performance plan covering each program activity set forth in the budget
          of such agency. Such plan shall-

                   (1) establish performance goals to define the level of
                   performance to be achieved by a program activity . . .
                                        . . . . . . .

                   (4) establish performance indicators to be used in measuring or
                   assessing the relevant outputs, service levels, and outcomes of
                   each program activity;

                   (5) provide a basis for comparing actual program results with the
                   established performance goals; and

                   (6) describe the means to be used to verify and validate
                   measured values. [Emphasis added.]

  As these criteria demonstrate, JTPA was specific that activities and outcomes should be
  documented, and both the WIA program regulations and the GPRA emphasize the
  necessity of having performance outcomes data that can be validated/verified. We found
  reported outcomes for the JTPA Title II-C OSY program did not meet this validation/
  verification standard.

  Table 1.1 summarizes the overall audit results for reported performance outcomes
  terminations and youth employability enhancements.


Office of Inspector General                          12
JTPA’s Title II-C Out-of-School Youth Performance Audit




                                           Table 1.1
                         Comparison of Reported Versus Verified Outcomes
                         Outcomes Reported                 Reporte     Verifie   Percen
                                                             d           d          t
      Entered Unsubsidized Employment Terminations
      (performance related) – See finding part A.               401        258    64.3%
      Youth Employability Enhancement Terminations
      (performance related) – See finding part B.                 98        13    13.3%
      Total Employability Enhancements (including 98
      that                                                      283         75    26.5%
      were performance related) – See finding part B.


          A.       A significant number of entered unsubsidized employment terminations
                   were reported in error and others are in question.

  Of the 401 participants in our sample who were reported in the SPIR as entering
  unsubsidized employment, only 258 (64 percent) reported placements were verified as a
  program outcome. As table 1.2 on the following page shows, we validated 238
  placements for participants who received services beyond objective assessment. We were
  able to verify an additional 20 placements, but we were unable to verify that these 20
  enrollees participated in a valid program activity even though counselors’ notes or
  management information system (MIS) forms indicated there may have participated
  beyond objective assessment.

  In our opinion, the remaining 143 reported entered unsubsidized employment outcomes
  were either not properly reported or are questionable for outcomes reporting based on
  our review of participants’ case files data, states’ wage records, and employer contacts.
  Table 1.2 on the following page identifies the specific reasons why the OIG questions
  these reported outcomes.




Office of Inspector General                          13
   JTPA’s Title II-C Out-of-School Youth Performance Audit




                                               Table 1.2
              Analysis of 401 Participants Reported As Entered Unsubsidized Employment

                                                  Placements Verified
       Placements verified                                                                           238     59.4%
       Placements verified but inadequate support for program activity                                20       5.0%
               Total verified placements                                                             258     64.3%
                                     Placements Improperly Reported to ETA
       No state wage record – employer confirmed did not employ                                       38       9.5%
       MIS reporting error, no placement recorded in participant file                                   1      0.2%
                                                                                       1
       Participants received no services other than objective assessment                              21       5.2%
       Placements were beyond 90 days past last documented program                                    36       9.0%
               Total placements improperly reported                                                   96     23.9%
                                   Placements in Question
       No state wage record – unable to contact reported employer                                     32       8.0%
       Worked for employer prior to or during JTPA enrollment                                         15       3.7%
               Total placements in question                                                           47     11.7%
        Total placements improperly reported or in question                                          143     35.7%

     As shown above, 38 participants did not have wage records and employers confirmed
     with the OIG that they did not employ the individuals. In our opinion, failure to verify
     placements through two sources of information – wage records and employer
     confirmation – was significant evidence that the participants were not employed.
     Consequently, when both sources indicated no employment occurred, we considered the
     outcomes invalid.

     For the 32 participants with no wage records and for whom we were unable to contact
     the employers -- no response to phone calls, unable to locate, or did not return written


        1
          We did not include in our audit universe or sample any participants which the SPIR showed as receiving only
objective assessment, regardless if the termination status was “entered unsubsidized employment.” In computing performance
outcomes, ETA does not include such individuals in its computations since they received no other services. The individuals
included in this category of “placements improperly reported to ETA” were included in ETA’s outcomes analysis because the
SPIR reported activities for them other than objective assessment and also reported that they entered unsubsidized
employment. We found no evidence in the participants’ files to indicate they received any services other than objective
assessment.


   Office of Inspector General                              14
JTPA’s Title II-C Out-of-School Youth Performance Audit


  confirmations -- it is possible that some of these participants worked for the employers
  but for whatever reason the employers failed to report wages. However, with no wage
  records for these 32 participants and our not being able to contact the employers, in our
  opinion, these outcomes are in question.

  For the 21 participants we indicated received only objective assessment, we did an
  exhaustive review of each participant’s file, and there was no indication in these files that
  any services were received beyond objective assessment.

  For the 36 participants for whom entered unsubsidized employment outcomes were
  reported more than 90 days after last activity, in our opinion, these cases were not simply
  record keeping issues where SDAs may not have been diligent about documenting
  program activities and services. The 90-day rule is in place to attempt to relate post-
  program employment to JTPA services. It is common practice among SDAs -- and has
  been reported in other audit reports on the JTPA program -- to keep participants
  enrolled in the program for long periods of inactivity until they obtain employment, then
  terminate them and report an entered unsubsidized employment outcome.

  Regarding the 15 participants who worked for the employer prior to or during JTPA
  enrollment, we took prior employment information from the participants’ own files, not
  from wage records. The employment at issue had nothing to do with JTPA involvement.


          B.       Documentation supporting youth employability enhancements was
                   seriously deficient.

  We reviewed documentation for 308 youth employability enhancements reported for 283
  of the 499 sampled participants regardless of the type of positive termination reported for
  the participants. We found only 27 percent of the enhancements to be adequately
  documented.

  Although only 98 participants’ termination status was reported as having attained an
  employability enhancement, these 98 participants accounted for 105 reported
  employability enhancements. An additional 185 participants whose termination status
  was reported as having entered unsubsidized employment also accounted for an
  additional 203 reported employability enhancements.

  Table 1.3, on the following page, shows that the documentation to support reported
  employment enhancements was seriously deficient.




Office of Inspector General                          15
JTPA’s Title II-C Out-of-School Youth Performance Audit




                                     Table 1.3
            Undocumented Youth Employability Enhancement Terminations and
            Youth Enhancements Claimed for Participants Entering Employment
                                             Reported Enhancement                 Enhancements Attained
                                              Terminations (98)                  Regardless of Termination
             Reportable 2
            Enhancements                 Reported     Undoc.       Percent    Reported       Undoc.   Percent

 Youth Employment Competency                    68            57    83.8%          203         160      78.8%
 Major Education Level                          28            23    82.1%            91         51      56.0%
 Returned to Full-time School                     5            5   100.0%                5        5    100.0%
 Entered Non-Title II Training                    4            4   100.0%                9        8     88.9%
 Total Enhancements Reported                   105            89    84.8%          308         224      72.7%


  For the 98 participants whose termination status was attained employability
  enhancement, only 16 of the 105 (15.2 percent) reported employability enhancements
  were adequately documented. For all 2833 participants for whom employability
  enhancements were reported, only 84 of 308 (27.3 percent) of the enhancements were
  documented. The following discussions relate to the four specific reportable
  enhancements shown in the previous
  table 1.3.

                    1)        Youth Employment Competency (YEC) Enhancement

  Of the 203 YEC enhancements reported, 160 (78.8 percent) were not adequately
  documented in accordance with ETA’s reporting instructions.

  To receive credit for the YEC enhancement, the participant must successfully complete
  two of the three following competencies in which they were deficient at the time of
  enrollment:

           a.       Pre-Employment/Work Maturity (PEWM),
           b.       Basic [Education] Skills Training (BST), or


     2
      Participants may attain more than one enhancement while enrolled in the program.

     3
      Includes the 98 participants for whom “attained employability enhancement” was the reported termination status.


Office of Inspector General                              16
JTPA’s Title II-C Out-of-School Youth Performance Audit


          c.       Occupational Skill Training (OST).

  The SPIR Format, Appendix A, page 52, provided the criteria used during the audit to
  evaluate the completion of the YEC activity.

          Competency gains must be achieved through program participation and be
          tracked through sufficiently developed systems that must include: quantifiable
          learning objectives, related curricula/training modules, pre- and post-
          assessment, employability planning, documentation, and certification.
          [Emphasis added.]

  Pages 46 and 48, paragraph B6, of the same document cited above, contained the
  following documentation requirement:

          A sufficiently developed youth employment competency system must include the
          following structural and procedural elements:

          6. Documentation

          * Maintenance of participant records and necessary reporting of competency-
          based outcomes to document intra-program learning gains achieved by youth.

  Specific PEWM competency requirements were identified on page 49 of the document.

          In order for an attainment to be reported in the area of pre-employment work
          maturity, at least one PIC-certified competency statement must be
          developed/quantified in each of . . . 11 core competencies – provided that at
          least 5 of these learning objectives were achieved during program
          intervention. . . .

  Table 1.4 on the following page shows the combinations of how the grantees reported the
  YEC enhancements to the DOL.




Office of Inspector General                          17
JTPA’s Title II-C Out-of-School Youth Performance Audit



                                         Table 1.4
              Youth Employability Competency Enhancements Reported Outcomes
                 Compared to Enhancements Documented in Participants’ Files
                                                  Reporte       Documente
                                                     d               d         Undocumented
                                                    Per           In Files
     YEC Enhancement Combinations                  SPIR          Per Audit   Number   Percent
   PEWM/BST/OST                                            24            1       23      95.8%
   PEWM/BST                                                59           16       43      72.9%
   PEWM/OST                                               106           22       84      79.2%
     Total Competencies Which
     Included PEWM as Part of YEC                         189           39      150      79.4%
   BST/OST                                                 14            4       10      71.4%
   Overall YEC Results                                    203           43      160      78.8%

  YEC enhancements represented 66 percent (203 of 308) of the reported OSY
  employability enhancements. As demonstrated in table 1.4, by far (189 of 203) the most
  reported YEC enhancements included the PEWM competency component. The
  remaining employability enhancements were the combinations of BST and OST.

  As table 1.4 shows, the YEC enhancement which included the PEWM component
  accounted for 150 of the 160 questionable YEC enhancements. The PEWM competency
  was the questionable component in 143 of the 150 questionable reported YEC
  enhancements that contained the PEWM competency.

          •        Nine participants’ files (6.0 percent) indicated the participant had passed
                   the pre-test; therefore, the participant should not have been enrolled in
                   PEWM.

          •        Eleven participants’ files (7.3 percent) had no evidence that a pre-test was
                   ever given to the participant.

          •        Fifteen participants (10.0 percent) did not successfully complete the
                   PEWM even though successful completion was reported on the SPIR. In 4
                   of these 15 cases, the auditee’s MIS did not report PEWM as an activity.




Office of Inspector General                          18
JTPA’s Title II-C Out-of-School Youth Performance Audit


          •        Fifty-five participants’ files (36.7 percent) contained inadequate
                   documentation to support the successful completion of the PEWM
                   intervention. In 29 of these 55 cases, the auditee’s MIS did not report
                   PEWM as an activity.

          •        Fifty participants’ files (33.3 percent) had no evidence to support either the
                   participants’ enrollment in, or completion of, the PEWM intervention. In
                   30 of these 50 files, the auditee’s MIS did not report PEWM as an activity.

          •        Three participants’ files (2.0 percent) indicated the participants were not in
                   JTPA Title II-C activities.

  Another seven participants’ files showed the PEWM outcome was a successful
  completion; however, the YEC enhancements were questionable because the BST and/or
  OST segments of the YEC enhancement were not supported.

  While the JTPA requirements and complexity of documenting the PEWM competency
  may lead to documentation and record keeping deficiencies, in our opinion, the problem
  with the PEWM competency goes beyond just documentation issues. As previously
  stated, we evaluated the attainment of the PEWM competency based on ETA’s
  requirements.

                   2)         Completed Major Level of Education (MLE) Enhancement

  To report an MLE employability enhancement, the SDA was required to document that
  the participant actively participated in JTPA for 90 days or 200 hours prior to completion
  and successfully completed, as a result of JTPA activity, one of the two following criteria:

          a.       must have earned a general equivalency diploma (GED) or high school
                   (HS) diploma or equivalent at the secondary level, or

          b.       obtained a written certification of post-secondary level completion.

  Out of 91 reported MLE enhancements for our participant sample, 51 (56 percent) were
  not supported. We found:

          •        Twenty-one participants’ files (23.1 percent) did not document fulfilling
                   the time requirement of 90 days or 200 hours of active JTPA participation
                   prior to completion.

          •        Six participants’ files (6.6 percent) did not complete the MLE activity in
                   which they were enrolled. Additionally, four of these cases did not fulfill
                   the time requirements.


Office of Inspector General                          19
JTPA’s Title II-C Out-of-School Youth Performance Audit



          •        Seven participants’ files (7.7 percent) had no evidence to support
                   enrollment in an MLE activity. In one of these cases, the auditee’s MIS
                   did not report MLE as an activity.

          •        Seventeen participants’ files (18.7 percent) did not include enough
                   documentation to determine attainment of the MLE youth enhancement.

  The following two examples demonstrate invalid MLE enhancements that were reported
  as positive outcomes.

  Example 1. Participant was a 20-year old high school graduate assessed with a sixth
  grade reading skill level and a fourth grade math skill level. He was enrolled in JTPA
  Title II-C basic skills training for approximately 4 months, Title II-B summer youth work
  experience program performing janitorial work for 2 months, and a Title II-C computer
  class for 1 month.

  He completed the computer class unsatisfactorily. Consequently, the instructor told him
  to either repeat the class or re-enroll in basic skills training. The participant did not
  comply and was subsequently terminated because of his lack of interest and failure to
  maintain contact with the program.

  Yet, he was erroneously reported as having attained the youth employability
  enhancement of “achieved a major level of education,” a positive youth enhancement
  termination. This participant did not satisfactorily complete his training, nor did he (1)
  earn a GED/HS diploma or equivalent at the secondary level, or (2) obtain a written
  certification of completion at the post-secondary level, a requirement to claim the MLE
  enhancement.

  Example 2. The SDA reported this participant as having “achieved a major level of
  education.” His SPIR records also indicated the participant completed the basic
  education skills component of the youth employment competency.

  The participant’s file indicated he completed 100 hours training in “other employment
  skills,” but file documentation was not adequate to verify training or completion. The file
  contains no reference to his attaining basic education skills or completing a major level of
  education. SDA personnel agreed that the participant did not participate in these
  activities and indicated these outcomes were improperly checked on the forms.

  While there is no documentation standard to which SDAs are held, there are standards
  that must be met to report an MLE outcome. Unless the attainment of that standard is
  documented, there is no assurance the outcome was attained.



Office of Inspector General                          20
JTPA’s Title II-C Out-of-School Youth Performance Audit




Office of Inspector General                          21
JTPA’s Title II-C Out-of-School Youth Performance Audit


                   3)         Returned to Full-Time School (RTS) Enhancement

  In order to report the RTS employability enhancement, SDAs were required to
  document that the following criteria were met:

          a.       the youth returned to full-time secondary school, if, at time of intake, youth
                   was not attending school, exclusive of summer, and the youth had no high
                   school diploma or GED, and

          b.       prior to JTPA termination, the youth had been retained in school one
                   semester or 120 calendar days prior to termination, and the youth was
                   making satisfactory progress in school.

  None of the five RTS youth enhancements reported met the documentation
  requirements for the following reasons:

          •        three participants’ files had insufficient documentation to support the
                   participant: (1) returned to full-time school, and/or (2) was attending
                   school during JTPA enrollment for 120 days or one semester, and/or (3)
                   had obtained a PIC approved YEC in BST or OST; and

          •        two participants did not return to full-time school.

                   4)         Entered Non-Title II Training (ENT) Enhancement

  The attainment of the ENT youth employability enhancement required that:

          a.       prior to termination, the participant entered occupational training not
                   funded by JTPA Title II which builds upon Title II training,

          b.       the non-Title II training did not duplicate Title II training, and

          c.       the participant was retained in non-Title II training for 90 days or 200
                   hours prior to completion of II-C activities or received a certification of
                   occupational skill attainment.

  Eight of the nine ENT youth employability enhancements were questionable. In six
  cases, there was no evidence in the participants’ case files to support the participants’
  enrollment in non-Title II activities. Some documentation existed for another participant
  but the support was inadequate to document the enhancement. Finally, another
  participant did not successfully fulfill the time requirement of 90 days or 200 hours of
  active non-Title II training prior to completing the JTPA activity.



Office of Inspector General                          22
JTPA’s Title II-C Out-of-School Youth Performance Audit


  Overall effect of our audit results

  In our opinion, based on the significance of the rates of positive outcomes that were not
  documented, the OSY outcomes rates reported by the SPIR and included in the PY 1997
  CFO Report were significantly lower than reported. While some of the undocumented
  outcomes may have, in fact, been attained, unless a reported outcome is documented, the
  outcome’s veracity is not certain. However, we are certain the outcomes rates were not
  as high as reported, because many of the outcomes we classified as undocumented were,
  in fact, invalid based on evidence we reviewed.

  The JTPA Title II-C OSY program’s true effectiveness is probably somewhere between
  ETA’s reported rates and the OIG’s documented successes; i.e., positive outcomes are
  lower than ETA’s reported, and some of the outcomes the OIG found not to be
  documented were no doubt attained. However, unless the outcomes are documented,
  the true effectiveness of youth training programs cannot be determined.

  To meet both WIA program regulations and GPRA requirements that performance
  outcomes must be able to be validated/verified, significant improvement must be made by
  all parties -- the service deliverers, Workforce Investment Boards, states, and the ETA --
  involved in the current WIA program to ensure that reported performance outcomes are
  accurate for current and future youth programs’ outcomes reporting.

  We recommend the Assistant Secretary for Employment and Training:

          !        Notify all states and substate WIA grantees of the audit results and
                   emphasize the necessity for states and their grantees to validate outcomes
                   data as part of their monitoring programs and training provider eligibility
                   determinations.

          !        Emphasize to the states and substate grantees the importance of
                   documenting not only reported outcomes but also specific services
                   provided, dates services were provided, and actual program exit date --
                   date of last activity.

          !        Include in ETA’s monitoring program a review of the states’ and substate
                   WIA grantees’ implementing such a data validation effort.

  ETA’s Response to Our Draft Report:

  With regard to our specific recommendations, the Deputy Assistant Secretary for
  Employment and Training stated:




Office of Inspector General                          23
JTPA’s Title II-C Out-of-School Youth Performance Audit


          . . . ETA will issue a program guidance letter informing the States of the
          findings and recommendations contained in this report. States will be asked to
          inform their WIA substate grantees of the audit findings. . . . [ETA] will
          encourage States and their grantees to include outcome data validation as part
          of their program reviews. . . .

          . . . the report does not clearly identify the standards of documentation that were
          applied. It would be helpful if the report could do so and could acknowledge
          the extent to which these standards are consistent with previous guidance issued
          under either JTPA or WIA. . . .

          . . . Under WIA regulations, monitoring of subrecipient or substate activities is
          primarily a State responsibility.

          At the federal level, ETA's regional staff have primary responsibility for ongoing
          program oversight and monitoring. We will convey the findings of the report to our
          regional staff and instruct them to work with their States in implementing data
          validation efforts as part of the States' oversight of their WIA substate grantees. We
          will also instruct regional staff to include this area in any program reviews at the State
          level.

  In ETA’s additional comments, the Deputy Assistant Secretary stated:

          The report states that 38 terminees were found to have no wage records and the
          "employer confirmed (they) did not employ (the) participant." . . . We
          recommend that the report explain the steps taken to verify employment
          outcomes and acknowledge the difficulty of verifying employment outcomes not
          reflected in the wage record system some two years after they are reported.

          Unfortunately the solution to documentation and verification issues is not as
          simple as issuing more explicit guidelines or conducting additional data
          validation reviews. We are mindful that a core principle of the reforms under
          WIA is to improve services to youth. We also need to acknowledge the
          administrative burden imposed on the programs to collect extensive
          documentation. . . . It could be counterproductive to the purposes of WIA if
          administrative requirements become so burdensome that they are a deterrent to
          the delivery of program services.

  Auditor’s Conclusion:

  We agree with ETA’s plan to get the audit findings out to the states. With respect to
  ETA’s plan to encourage states to include outcomes’ data validation as part of their
  monitoring programs, we believe ETA needs to take stronger action than simply

Office of Inspector General                          24
JTPA’s Title II-C Out-of-School Youth Performance Audit


  encouraging the states to validate data, since both WIA and GPRA requires that
  reported outcomes be verifiable.

  ETA’s response raised the issue of what documentation standard the OIG used in this
  audit. We used ETA’s SPIR reporting requirements and the SDAs’ instructions to their
  staff and service providers through their annual plans or service provider agreements.
  The majority of the SDAs utilized the SPIR’s reporting requirements as the basis for their
  reporting; however, in many cases, SDAs supplemented the SPIR requirements with
  their own. As a result, we cannot provide all the criteria used to evaluate the adequacy of
  the documentation. However, we reviewed each participant’s file and reported outcomes
  using SDA-furnished criteria and SPIR instructions, and found documentation of
  participation to be a significant problem no matter what criteria we applied.

  With respect to the Deputy Assistant Secretary’s response to our recommendation
  regarding the scope of ETA’s monitoring, we recognize that, as ETA points out, the
  monitoring of sub recipient or subspace activities is primarily a State responsibility under
  the WIA regulations. However, the Secretary is authorized to monitor all recipients and
  subrecipients. Further, DOL’s uniform administrative requirements, found at 29 CFR
  Parts 95 and 97, require grantees to monitor subgrants, and Part 97 (which applies to
  governmental entities, including states) specifically requires grantees to monitor
  subgrants to assure performance goals are being achieved. As only valid outcomes count
  toward the determination of goal achievement, we believe such outcomes must be
  verified by the states.

  ETA’s additional comments requested further information on our procedures to verify
  employment. We obtained wage records for all sampled participants. We reviewed the
  wage records to verify the reported employment. If the employer appeared on the
  participant’s wage record, we considered the placement valid. If the employer was not on
  the participant’s wage record but the participant had wage records for any other
  employer in the termination quarter, we considered the reported “entered unsubsidized
  employment” outcome to be valid. In some cases, SDAs had written employer
  verifications, which we accepted.

  For participants whose wage records did not verify employment, we attempted to contact
  the employer by phone. If we were successful, we talked to the employer’s human
  resource officer or the owner. If the employer verbally confirmed the employment, we
  considered it to be valid. If the employer stated the participant was not hired, we
  considered the reported employment invalid. As stated in the report finding, in our
  opinion, failure to verify unsubsidized employment through two sources of information –
  wage records and employer confirmation – was significant evidence that the participants
  were not employed. When both sources indicated no employment occurred, we
  considered the outcomes invalid.




Office of Inspector General                          25
JTPA’s Title II-C Out-of-School Youth Performance Audit


  We disagree with ETA’s suggestion that we are calling for extensive documentation,
  which ETA believes could burden both the programs and employers to the point of
  becoming counterproductive and a deterrent to service delivery. We believe the burden
  would have been minimal, and subsequent validation more easily accomplished, if the
  SDAs had: obtained adequate documentation (from the participant, school and/or
  employer) at the time an outcome occurred; maintained such documentation in the
  participant file; and reported only documented outcomes.




Office of Inspector General                          26
JTPA’s Title II-C Out-of-School Youth Performance Audit



  2.         Participants’ Post-Program Earnings Were Affected by Program Interventions
             and Level of Participants’ Participation.


  We found that post-program earnings for youth who participated in OST activities were
  twice that of those who did not. In addition, for those OST participants who completed
  the OST activity, post-program earnings for the 2-year period after termination were 69
  percent higher than for those who did not complete the OST activity.

  Another audit objective was to determine whether the individual service strategy (ISS)
  was being used to provide training or services to specifically address participants’
  employment barriers and to determine if the provided interventions impacted post-
  program earnings. Many identified barriers were not addressed because of the program’s
  limitations and because participants refused to participate, both issues outside the SDAs’
  control. The SDAs did enroll the majority of participants in activities to address the
  barriers, but the participants did not complete approximately half the activities.

             A.      Post-program earnings were directly impacted by the type of training a
                     participant received.

  This audit revealed that post-program earnings for OST youth were twice that of those
  who did not participate in OST. Our 499 participant sample included 371 participants
  that were enrolled in at least one OST activity during their JTPA enrollment. Table
  2.1summarizes the results of our analysis of post-program earnings for all of the 499
  sampled participants who had earnings.

                                            Table 2.1
              Average Earnings for Individuals Based in Occupational Skills Training
                                            Quarters After Termination

                    1st Four Quarters             2nd Four Quarters               2 Years Combined

   OST        No.     Quarterly    Annual   No.    Quarterly      Annual    No.    Quarterly   Annual

    Yes       321       $2,787     $9,291   301       $3,173      $10,323   340       $2,904   $17,910
       No     101         1,564     4,818    94           1,651     5,047   112        1,558     8,580
       All    422       $2,494     $8,220   395       $2,811       $9,068   452       $2,570   $15,599

  As stated earlier, the differences in earnings between those participating in OST and
  those who did not are significant. Both tables 2.1, above, and 2.2, on the next page, show
  higher earnings for OST participants.



Office of Inspector General                           27
JTPA’s Title II-C Out-of-School Youth Performance Audit


  Table 2.2 shows that, regardless of the combination of services a participant receives,
  OST participants fare better than non-OST participants.



                                               Table 2.2
                     Occupational Skill Training’s Impact on Participants’ Earnings
                                                              Participant Averages
                                          1st Four Quarters After                2nd Four Quarters After
      Training Received                     Termination (1st Year)                 Termination (2nd Year)
                                                            Annualize                                Annualize
     OS         BS                           Quarterly         d                     Quarterly          d
     T          T       JS/JR       No.      Earnings       Earnings         No.     Earnings        Earnings
                         Yes          44        $2,223            $7,160      43         $2,741            $9,388
               Yes
                          No          33          2,641            8,630      34           3,075            9,649
     Yes
                         Yes        104           2,962            9,678      92           3,351           11,087
                No
                          No        140           2,868            9,828     132           3,216           10,269
                         Yes          44          1,396            4,176      42           1,147            3,011
               Yes
                          No          35          1,547            4,819      35           1,916            6,416
     No
                         Yes          21          1,838            5,842      16           2,259            6,760
                No
                          No         14           3,835           11,506        1          3,810           15,240

  Table 2.2 shows the combination of training activities participants can be enrolled in while
  in JTPA. As highlighted in the table, a participant receiving OST and JS/JR training
  earned on average $9,678 for the first four quarters after termination while the
  participant enrolled in BST and JS/JR earned only $4,176. The gap between these two
  groups is much greater for quarters five through eight after termination; the OST and
  JS/JR groups earnings increased 15 percent to $11,087 while the BST and JS/JR groups
  earnings decreased 28 percent to $3,011.

  We also evaluated the post-program earnings impact of participants completing the OST
  activity. For those OST participants who completed the activity, we estimate post-
  program earnings for the 2-year period after termination to be 69 percent higher than for
  those who did not complete the activity -- $26,098 to $15,454.




     4
         Participant was a 20-year old high school graduate who received no training or services during JTPA enrollment.

Office of Inspector General                                28
JTPA’s Title II-C Out-of-School Youth Performance Audit


          B.       Almost half of the training activities to address participants’ barriers were
                   not completed.

  The purposes of the objective assessment and the ISS are to identify a participant’s
  barriers and then create a strategy to address those barriers.

  20 CFR 628.515 requires an objective assessment be performed on each participant.
  Objective assessment, per 20 CFR 628.515(b), means an examination of the capabilities,
  needs, and vocational potential of a participant and is to be used to develop an individual
  service strategy and employment goal. . . . 20 CFR 628.520 indicates that an ISS will be
  developed for each participant as a cooperative effort between the SDA/service provider
  and the participant.

  We estimate:

          !        98.6 percent had an ISS of which:

                   •          86.7 percent had an employment goal.
                   •          87.3 percent had appropriate achievable objectives.
                   •          86.2 percent had intervention plans to address the participants’
                              barriers.

  We attempted to compare ISS-identified employment barriers to the training and services
  participants received. We combined training activities into the following three categories:
  (1) basic skills, (2) occupational skills, and (3) job-seeking/job-retention (job-
  related/readiness) skills. Each of these categories is defined as follows:

                         Definition of Training Categories Used in this Report
   Basic Skills Training (BST) includes: basic skills, GED preparation, remedial education,
   and English as a second language.
   Occupational Skills Training (OST) includes: on-the-job training, work experience,
   cooperative education, limited-internships, college/Jr. college courses, and
   vocational/technical school.
   Job-seeking/Job-retention Skills Training (JS/JR) includes: preemployment/work
   maturity, job clubs/job search assistance, coaching/counseling, and other seminars and
   workshops provided by the SDAs or their service providers.




Office of Inspector General                          29
JTPA’s Title II-C Out-of-School Youth Performance Audit


  Although participants had many types of barriers identified, we concentrated on the
  impact JTPA training had on four barriers.

          •        basic skills deficiency,
          •        high school dropouts,
          •        lacks work experience/training, and
          •        lacks job-seeking and/or job-retention skills.

  Table 2.3 presents the primary interventions participants in our sample received to
  address their barriers. Because the majority of the participants have more than one
  barrier, the individual totals will not add to the number of participants in the sample.

                                               Table 2.3
                                      Barriers and Interventions
                                                           Interventions
                                           BST                OST                JS/JR
                                    Enrolle               Enrolle           Enrolle
          Barriers            No.     d             %       d        %        d           %
   Basic Skills Deficient     289         144     49.8%       193   66.8%       156      54.0%
   School Dropout             221         152     68.8%       121   54.8%       139      62.9%
   Lacks WE/OST               309         119     38.5%       237   76.7%       167      54.0%
   Lacks JS/JR Skills         156          48     30.8%       139   89.1%        95      60.9%

  As can be seen from the above table, the SDAs appeared to try to address participants’
  barriers by enrolling them in related activities. For example, almost 50 percent of those
  with basic skills deficiencies and almost 70 percent of high school dropouts received basic
  skills training; almost 80 percent of those who lacked work experience or occupational
  skills received some occupational skills training; and 60 percent of those who lacked job
  seeking/job related skills received services in that area.

  However, enrollment in an activity did not ensure that participants received the necessary
  skills to overcome their barriers because many did not complete the activity. We found
  that 59 percent of the BST activities and 49 percent of the OST activities were not
  completed.

  We did not determine why participants did not complete the activities in which they were
  enrolled. However, one characteristic of high-risk youth is a continual state of flux, with
  major changes occurring in their lives or the paths they choose to take almost daily. While
  these high-risk youth may be hard to work with, it is evident that youth participants who


Office of Inspector General                          30
JTPA’s Title II-C Out-of-School Youth Performance Audit


  receive OST have higher earnings than those who do not. Also, those who complete the
  activity have higher earnings than those who do not. Consequently, to increase the
  potential for earning levels that will allow youth to be self-supporting, it is critical for the
  WIA youth program to find ways to keep youth actively participating in the program to
  completion.

  We recommend the Assistant Secretary for Employment and Training emphasize the
  importance of the WIA program’s not only enrolling youth in occupational skills training
  activities, but also finding ways to keep them actively participating in the program to
  completion, to maximize their post-program earnings.

  ETA’s Response to Our Draft Report:

          We will include this emphasis in the . . . program guidance letter disseminating
          the findings of the audit. We also issue program guidance information each
          year, typically about the summer employment opportunities program. This year
          we plan to issue comprehensive guidance on youth services under WIA and will
          include a section in this guidance letter on retention of participants. While we
          concur with the need to focus on retention strategies, it is also important to
          understand that these programs serve some of the most challenging youth.
          Many economically disadvantaged, out-of-school youth face multiple barriers to
          successful transition into the work force. . . .

  Auditor’s Conclusion:

  We agree with the Assistant Secretary’s planned actions regarding this finding.




Office of Inspector General                          31
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                               APPENDIX I


       PRIMARY CRITERIA FOR YOUTH EMPLOYABILITY ENHANCEMENTS


  In order to attain a youth employability enhancement, a participant must have 1)
  accomplished two of three PIC-defined youth competencies; 2) returned to full-time
  school; 3) achieved a major educational level; or 4) entered other non-Title II training.
  Each enhancement is discussed below:

  1.      Youth competencies (must accomplish two of three PIC-defined) include:

          •        pre-employment/work maturity skills,
          •        basic academic skills, or
          •        job specific skills.


  2.      Return to full-time secondary school (e.g., junior high, middle, or high school ).

          •        Prior to JTPA termination the participant must have remained in school
                   for one semester or at least 120 calendar days after becoming a JTPA
                   participant.

          •        SDAs must demonstrate that retention results from continuing, active
                   participation in JTPA activities, and the youth must:

                   -          be making satisfactory progress in school based on a written policy.
                              [The policy should define both qualitative (e.g., performance on a
                              criterion-referenced test or a grade point average) and quantitative
                              (e.g., a time limit for completion of the program or course of study).
                              Under mitigating circumstances, some participants not meeting the
                              standards may be considered as making satisfactory progress during
                              a probationary period.] (Per SPIR instructions.)

                   -          for youth aged 16 through 21, attained either a PIC-approved basic
                              academic skill or job specific skill competency; and

                   -          for youth aged 14 through 15, attained either a PIC-approved basic
                              academic skill or pre-employment/work maturity competency.




Office of Inspector General                          32
JTPA’s Title II-C Out-of-School Youth Performance Audit


  3.      Completed major educational level -- both secondary and post secondary.

          •        Must result primarily from active JTPA participation of at least 90 days or
                   200 hours, usually prior to such completion, and

                   -          for high school graduate or GED recipient, must be supported by a
                              diploma or GED certificate or equivalent, and

                   -          for post secondary accomplishment, requires a diploma or other
                              written certification of completion at the post-secondary level.

  4.      Entered non-JTPA Title II training.

          •        Must have been retained in the non-JTPA program for at least 90-calendar
                   days or 200 hours or must have received a certification of occupational skill
                   attainment.

          •        Must not have received JTPA Title II services while in non-Title II training.




Office of Inspector General                          33
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                              APPENDIX II

                                                Sampling Plan

  The sampling plan for the audit was based on national populations of 1) SDAs and 2)
  JTPA Title II-C out-of-school youth program participants who met the following criteria:

            !      received a positive termination from the program -- either entered
                   unsubsidized employment or attained an employability
                   enhancement -- between, and including, July 1, 1997, and June 30,
                   1998, and

            !      the SPIR identified as out-of-school at the time of enrollment.

  The source of these populations was the PY 1997 SPIR computer file provided by Social
  Policy Research Associates (SPRA). SPRA maintains the national SPIR system under
  contract with the U.S. Department of Labor, Employment and Training Administration.

  We used a two-stage sampling plan based on a two-sided 95 percent confidence level,
  expected error rate of 50 percent, and precision of ± 5 percent. First, DOL regions were
  combined into four geographic areas identified as stratum in the table below. Based on
  the number of SDAs in each stratum, a random sample of SDAs was selected. Second, a
  random sample of participants was selected for each sampled SDA. There were 634
  SDAs with 35,323 participants who met our audit criteria. The following table displays
  the resulting sampling plan.


                                 SDA Universe                SDA Sample
                                                                                          Total
                  DOL             No. of                     No. of              Part.     Part.
                 Region        Participants                Participants         Sample    Sampl
   Stratum         s          1-100 101+           All    1-100 101+      All    Size       e
        1        1, 2, 3        144        12      156          6     2     8        16     128
        2        5,7            185        26      211          9     2    11        16     176
        3        4, 6, 8        160        11      171          7     2     9        16     144
        4        9, 10           80        16       96          4     2     6        16      96
   Total                        569        65      634      26        8    34        16     544

  As shown in the prior table, we randomly selected a sample of 34 SDAs and 16
  participants for each SDA. The total sample size was 544 participants, however, as shown
  below, several of the SDAs did not have 16 participants that met the audit criteria. In

Office of Inspector General                          34
JTPA’s Title II-C Out-of-School Youth Performance Audit


  those cases we reviewed all participants who met the audit criteria. Total participant files
  reviewed was 510. The sample is identified below.


                                               SDA Sample
                     Name                       Size                    Name               Size
  Western Arkansas Consortium                    16       Lansing/Tri County E & T         16
  Balance of Santa Clara County                  16       Muskegon/Oceana Consortium,      16
  Shasta County, CA                              16       Central Mississippi SDA, MS      16
  San Benito County, CA                          7        Greater Lincoln Consortium, NE   16
  Anaheim City in Orange County,                 3        Union County, NJ                 14
  Jefferson County Consortium, CO                16       Ocean County, NJ                 16
  Pasco-Hernando JEP 16, FL                      16       Eastern Carolina SDA, NC         16
  Polk Workforce Development                     16       Cincinnati City in Hamilton      16
  Workforce Council of South                     16       Montgomery/Preble/Dayton         16
  Honolulu City/County, HI                       16       Portage County, OH               16
  Mayor's Office of E & T, IL                    16       Ohio 18 Consortium, OH           16
  Northeastern Indiana SDA, IN                   16       Northern Tier Consortium, PA     16
  Rapides Parish, LA                             9        SDA # 9 Catawba SDA, SC          16
  Louisiana District I                           16       JSTD 5, Cleveland, TN            16
  Baltimore County, MD                           16       City of Richmond, VA             13
  Prince Georges County, MD                      16       The Pacific Mountain, WA         16
  Northern Middlesex Consortium,                 16       Northeast Consortium, PR         16




Office of Inspector General                            35
JTPA’s Title II-C Out-of-School Youth Performance Audit


                                              APPENDIX III

  U.S. Department of Labor                 Employment and Training Administration
                                           200 Constitution Avenue, N.W.
                                           Washington, D.C. 20210


  MAR 7         2001


  MEMORANDUM FOR                   JOHN J. GETEK
                                   Assistant Inspector General for Audit


  FROM:                            RAYMOND J. UHALDE
                                   Deputy Assistant Secretary for Employment and Training

  SUBJECT:                         Performance Audit of Job Training Partnership Act, Title
                                   II-C, Out-of-School Youth Program Draft Audit Report
                                   No. 06-01-001-03-340


  Thank you for providing the subject report and the opportunity to provide comments. I
  want to thank you and your audit staff for your willingness to work with our program
  staff in completing this draft audit report. Overall, we found the report to contain
  findings that were clearly articulated, well-presented, and supported by the facts derived
  from the sample you reviewed.

  We agree that performance results must be credible. If the reality or the perception is
  that programs are not reporting accurately, the system's integrity is at stake. Therefore,
  the Employment and Training Administration (ETA) is committed to developing clear,
  precise, and feasible standards for documenting program outcomes. ETA's new data
  validation initiative is attempting to create both more precise programming
  specifications and also more precise standards for validating data quality. ETA expects
  the validation system to be designed and pilot-tested by September, 2002.

  Following is our response to each of the specific recommendations in the report as well
  as additional comments about the findings contained in this report.

  RECOMMENDATIONS:

  •       Notify all States and substate WIA grantees of the results of this audit and
          emphasize the necessity for states and their grantees to include outcomes data
          validation as part of their monitoring programs and service provider certification
          programs.


Office of Inspector General                          36
JTPA’s Title II-C Out-of-School Youth Performance Audit




  •       Emphasize to the states and substate grantees the importance of documenting not
          only reported outcomes but also specific services provided, dates services were
          provided, and actual program exit date - date of last activity.

  RESPONSE:

  •       When the report is final, ETA will issue a program guidance letter informing the
          States of the findings and recommendations contained in this report. States will
          be asked to inform their WIA substate grantees of the audit findings. In addition,
          we routinely post our formal guidance letters on our web site. In this same
          directive, we will encourage States and their grantees to include outcome data
          validation as part of their program reviews. Note that while local Boards are
          responsible for oversight of providers, there is no requirement for "service
          provider certification" under WIA. We will recommend that subcontracts with
          service providers include a provision for maintaining accurate case records,
          including recording of outcome data.

  •       The audit report cites several legislative and other federal guidelines that mention
          documentation requirements to support. However, the report does not clearly
          identify the standards of documentation that were applied. It would be helpful if
          the report could do so and could acknowledge the extent to which these standards
          are consistent with previous guidance issued under either JTPA or WIA.


  RECOMMENDATION:

  •       Include in ETA's monitoring program a review of the states' and substate WIA
          grantees' implementing such a data validation effort.

  RESPONSE:

  •       Section 667.400 of the WIA regulations outline federal, state and local
          responsibilities for oversight and monitoring. Section 667.400 (a) stipulates that
          Federal oversight will be conducted primarily at the recipient (i.e. State) level.
          Section 667.400(c) outlines recipient and subrecipient monitoring of
          grant-supported activities. Under WIA regulations, monitoring of subrecipient or
          substate activities is primarily a State responsibility.

  •       At the federal level, ETA's regional staff have primary responsibility for ongoing
          program oversight and monitoring. We will convey the findings of the report to
          our regional staff and instruct them to work with their States in implementing
          data validation efforts as part of the States' oversight of their WIA substate



Office of Inspector General
JTPA’s Title II-C Out-of-School Youth Performance Audit


          grantees. We will also instruct regional staff to include this area in any program
          reviews at the State level.

  RECOMMENDATION:

  •       Emphasize the importance of the WIA program's not only enrolling youth in
          occupational skills training activities, but also finding ways to keep them actively
          participating in the program to completion, to maximize their post-program
          earnings.

  RESPONSE:

  •       We will include this emphasis in the above mentioned program guidance letter
          disseminating the findings of the audit. We also issue program guidance
          information each year, typically about the summer employment opportunities
          program. This year we plan to issue comprehensive guidance on youth services
          under WIA and will include a section in this guidance letter on retention of
          participants. While we concur with the need to focus on retention strategies, it is
          also important to understand that these programs serve some of the most
          challenging youth. Many economically disadvantaged, out-of- school youth face
          multiple barriers to successful transition into the work force. In addition, for
          many youth, the process of moving from adolescence to adulthood is characterized
          by numerous impediments and it is only over time that they mature and become
          productive citizens.

  ADDITIONAL COMMENTS:

  The report states that 38 terminees were found to have no wage records and the
  "employer confirmed (they) did not employ (the) participant." There is no evidence
  provided in the audit report of the thoroughness of attempts to obtain verification of two
  year old employment data from the employer. Given that there may be multiple employer
  sites, turnover in employment staff, and other factors that could result in a false negative
  outcome, it is difficult to determine the accuracy of this specific audit finding. The report
  partially acknowledges this by indicating that "some of the outcomes that were
  documented may have, in fact, been attained." We recommend that the report explain the
  steps taken to verify employment outcomes and acknowledge the difficulty of verifying
  employment outcomes not reflected in the wage record system some two years after they
  are reported.

  We also suggest that the report be revised to refer to the JTPA regulatory requirements
  in the past tense. It is confusing as currently drafted. Some examples are on pages 4, 5,
  and 9.




Office of Inspector General
JTPA’s Title II-C Out-of-School Youth Performance Audit


  Unfortunately the solution to documentation and verification issues is not as simple as
  issuing more explicit guidelines or conducting additional data validation reviews. We
  are mindful that a core principle of the reforms under WIA is to improve services to
  youth. While we need to insure the integrity of our reported program outcomes, we also
  need to acknowledge the administrative burden imposed on the programs to collect
  extensive documentation. An additional problem is the burden on the employer
  community. Employers may be reluctant to work closely with workforce development
  programs if they perceive too great a burden in providing evidence of employment. It
  could be counterproductive to the purposes of WIA if administrative requirements
  become so burdensome that they are a deterrent to the delivery of program services.

  Again, we appreciate the opportunity to work with you in preparing this report as well as
  the opportunity to provide these comments. Please contact me if you need further
  information.




Office of Inspector General
